CERTIFICATE OF WORD COUNT
Case No.
Case Name: John Henry Ryskamp v. Commissioner of Internal Revenue
Document Title: Petition for Writ of Certiorari
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the accompanying Petition for
Writ of Certiorari, whichwas prepared using Century Schoolbook 12-point typeface, contains
1,880 words, excluding the parts of the document that are exempted by Rule 33.1(d). This
certificate was prepared in reliance on the word-count function of the word processing system
(Microsoft Word) used to prepare the document. Pursuant to 17 USC 1746,1 declare under
penalty of peijury that the foregoing is true and correct.

DATED this 5th day of January 2020.

0
John Henry Ryskamp
1677 Arch Street
Berkeley, California 94709
philneo2001 @yahoo. com
510-848-6898

